   OFFICE OF
INSPECTOR GENERAL



   Semiannual Report to Congress

   October 1, 1998 - March 31, 1999





       Federal Election Commission

            999 E Street, N.W.

                Suite 940

         Washington, D.C. 20463




               May 1999

                                   TABLE OF CONTENTS



SUBJECT                                                                                           PAGE


EXECUTIVE SUMMARY------------------------------------------------------------------                1


FEDERAL ELECTION COMMISSION-----------------------------------------------                         5


AUDITS-----------------------------------------------------------------------------------------    7


AUDIT FOLLOW-UP-----------------------------------------------------------------------             11


INVESTIGATIONS--------------------------------------------------------------------------           13


ADDITIONAL OFFICE OF INSPECTOR GENERAL

    ACTIVITY-----------------------------------------------------------------------------          14


ECIE AND PCIE ACTIVITY-------------------------------------------------------------                20


REPORTING REQUIREMENTS-------------------------------------------------------                      22


TABLE I - QUESTIONED COSTS-----------------------------------------------------                    23


TABLE II - FUNDS PUT TO BETTER USE----------------------------------------                         24


TABLE III - SUMMARY OF AUDIT REPORTS WITH

            CORRECTIVE ACTIONS OUTSTANDING

            FOR MORE THAN SIX MONTHS-----------------------------------                            25


OFFICE OF INSPECTOR GENERAL HOTLINE---------------------------------                               26


OIG STRATEGIC PLAN-------------------------------------------------------------------              27





October 1, 1998 - March 31, 1999
                                   EXECUTIVE SUMMARY


       This report is submitted pursuant to the Inspector General Act of 1978, as

amended, and includes a summary of the Office of Inspector General's (OIG)

activities for the period October 1, 1998 through March 31, 1999.



       During this reporting period, one audit report and one audit follow-up report

were released and two cash counts of the Federal Election Commission’s (FEC)

imprest fund were conducted. The Office of Inspector General also initiated an

audit during this reporting period of the Agency Year 2000 Renovations. We are

conducting this audit to verify whether progress reported by the FEC for resolving

the Y2K problem, matches its actual state of preparation. The audit will also

evaluate compliance with applicable laws and regulations. The draft report of the

audit was released on March 31, 1999. We anticipate releasing the final audit

report during the next reporting period. The audits and follow-up report are

summarized below:



       Audit of Commission’s Management of Computer Software - OIG 98-05,

       was released March, 1999. The primary objectives were to 1) verify that the

       Commission’s computer software is in compliance with applicable copyright

       laws and commission policies and procedures; 2) determine that adequate




October 1, 1998 - March 31, 1999                                        Page 1
       policies and procedures are in place to prevent unauthorized software use by

       Commission employees; and 3) ensure that adequate controls are in place to

       detect and prevent computer viruses. During the audit, the OIG performed

       an unannounced inspection of Commission computers. The unannounced

       inspection was based on a random sample of computers. The purpose of the

       inspection was to document the computer software programs installed on

       Commission computers, and to verify that anti-virus software was installed

       and active on the computers. We concluded that adequate policies and

       procedures are in place to prevent unauthorized software use by Commission

       employees. We provided management with several suggestions for

       improvement. Our audit contained one finding and three recommendations

       which are detailed in the audit section of this report.



       A Follow-up report to the audit of the Review of the Commission’s

       Employee Appraisal Process - OIG 97-02, was conducted this reporting

       period. The original audit was released in January, 1998. The primary

       objectives of the audit were to 1) determine whether the Commission’s

       Employee Appraisal Process was in compliance with applicable federal

       regulations and commission personnel instructions; and 2) determine

       whether the Commission’s monetary incentive process is in compliance with

       applicable Federal Regulations and Commission Personnel Instructions.

       Four audit recommendations were contained in the original report.




October 1, 1998 - March 31, 1999                                        Page 2
       Management agreed with all the recommendations made in conjunction with

       the findings. However, after our review we found that the Personnel office

       has not resolved the four audit recommendations. The details of the follow-

       up report are discussed in the audit follow-up section of this report.



       Audit of Agency Year 2000 Renovations - OIG 98-08, is currently in

       progress. The primary objectives of this audit are to 1) verify the reported

       progress of the FEC’s Y2K renovation project; and 2) to evaluate compliance

       with applicable laws & regulations. Throughout the audit, we regularly

       updated the Y2K team on all project risk that we identified during our audit

       fieldwork and provided specific recommendations to reduce exposure to those

       risks. We anticipate releasing the audit during the next reporting period.

       Further details concerning this audit are discussed in the audit section of

       this report.



       Our office, along with the Inspector General from the Equal Employment

Opportunity Commission, conducted a peer review of the Panama Canal

Commission’s Office of Inspector General. The objectives of the peer review were to

determine 1) whether or not the audit organization’s internal control system is

adequate and operating effectively; and 2) whether or not established policies,

procedures, and applicable Government Auditing Standards are being followed in

practice. The scope of the review included: 1) reports and working papers for four



October 1, 1998 - March 31, 1999                                           Page 3
audits listed in semiannual reports for the October 1, 1997 through September 30,

1998 period; 2) OIG Audit and Investigative Work Plan and Strategic Plan; 3) job

descriptions and documents describing auditor experience and training; 4) OIG

Procedures Manual and 5) employee confirmation of independence statements.

Additionally, appropriate members of the audit staff were interviewed to verify the

actual practice of quality control and follow-up procedures. The draft report has

been issued to the Inspector General of the Panama Canal Commission.



       To enhance the effectiveness of the Office of Inspector General and to ensure

effective audit coverage of the Commission’s programs and operations, the OIG

developed a strategic plan covering fiscal year 1999-2004. The OIG strategic plan

will continue to evolve and will be reviewed and updated as necessary to ensure

maximum effectiveness in meeting the changing needs of the FEC, consistent with

the OIG’s statutory responsibilities. The Strategic Plan can be found in

Appendix A.




October 1, 1998 - March 31, 1999                                           Page 4
                    THE FEDERAL ELECTION COMMISSION


       The Federal Election Commission (FEC) is an independent, regulatory

agency responsible for administering and implementing the Federal Election

Campaign Act (FECA). The FEC is composed of six Commissioners who are

appointed for six year terms by the President with the advice and consent of the

Senate. The FECA likewise established the positions of Staff Director and General

Counsel, who are appointed by the Commissioners.




                      OFFICE OF INSPECTOR GENERAL


       The Federal Election Commission is one of the thirty-three designated

agencies required to have an Inspector General under the 1988 amendments to the

Inspector General Act of 1978 (P.L. 100-504).



       The responsibilities of the Inspector General as stated in P.L. 100-504 are as

follows:

               o	      conduct and supervise audits and investigations

                       relating to the Federal Election Commission's

                       programs and operations;




October 1, 1998 - March 31, 1999                                         Page 5
               o	      provide leadership, coordination, and to recommend

                       policies for activities designed to promote economy,

                       efficiency and effectiveness in the administration

                       of Commission programs and operations. To prevent

                       and detect fraud, waste and abuse in these programs

                       and operations, and;



               o	      keep the Commissioners and Congress fully and

                       currently informed about problems and deficiencies

                       and the need for and progress of corrective actions.



       The OIG staffing level for FY’99 is 4 FTE. The staff consists of the Inspector

General, the Special Assistant to the Inspector General and two Senior Auditors.




October 1, 1998 - March 31, 1999                                              Page 6
                                         AUDITS


TITLE:                        Audit of the Commission’s Management of Computer
                              Software


ASSIGNMENT #:                 98-05

RELEASE DATE:                 March, 1999

PURPOSE:	                     The three objectives of our audit were to: 1) verify that

                              Commission computer software is in compliance with

                              applicable copyright laws and Commission policies and

                              procedures; 2) determine that adequate policies and

                              procedures are in place to prevent unauthorized software

                              use by Commission employees; and 3) ensure that

                              adequate controls are in place to detect and prevent

                              computer viruses.


                              Our audit examined the management of computer

                              software programs installed on Commission computers to

                              ensure that software complies with applicable software

                              copyright laws and Commission policies and procedures.

                              We generally found that the majority of the software

                              installed on the Commission computers we inspected was




October 1, 1998 - March 31, 1999                                             Page 7
Audits (continued)
                              in compliance with applicable software copyright laws.

                              However, we did find that unlicensed software was

                              installed on Commission computers. We suggested that

                              Data Systems Development Division (DSDD) develop an

                              adequate record keeping system to ensure that all

                              software installed on Commission computers complies

                              with copyright laws. DSDD is planning to, or has already

                              taken, action to rectify the unlicensed software we found

                              installed on several Commission computers.



                              We also reviewed the FEC’s policies and procedures

                              related to computer software use by employees. The

                              purpose of the review was to determine whether adequate

                              policies and procedures are in place to prevent

                              unauthorized software use by employees. We reviewed

                              the FEC’s Directive #58, which contains controls over

                              computer software, and inspected the User Computer

                              Agreements to determine if all employees have signed the

                              agreement to abide by Commission’s policy on computer

                              software use. We also conducted an unannounced

                              inspection of a sample of Commission computers to




October 1, 1998 - March 31, 1999                                            Page 8
Audits (continued)



                              determine whether the computer software installed on

                              the PC’s was authorized in accordance with Directive #58.



                              Overall, we believe adequate policies and procedures are

                              in place to prevent unauthorized software use by

                              Commission employees. We did provide management

                              with several suggestions for improvement.



                              We also reviewed the FEC’s anti-virus software system.

                              In general, the purpose of the review was to verify that

                              the current version of the anti-virus software is installed

                              on Commission personal computers. One

                              recommendation was made to management.



TITLE:                        Audit of Agency Year 2000 Renovations

ASSIGNMENT #:                 98-08

RELEASE DATE:                 In Progress

PURPOSE:	                     The primary objectives of this audit are to: 1) verify the

                              reported progress of the FEC’s Y2K renovation project;

                              and 2) to evaluate compliance with applicable laws &




October 1, 1998 - March 31, 1999                                              Page 9
Audits (continued)
                              regulations. Throughout the audit, we regularly updated the

                              Y2K team on all project risk that we identified during our

                              audit fieldwork and provided specific recommendations to

                              reduce exposure to those risks.



STATUS:	                      The audit fieldwork is complete and the audit report

                              recommendations have been discussed with the

                              appropriate agency officials. The draft audit report was

                              released March, 1999 for review and written comment by

                              officials having management responsibility over the

                              issues discussed. The final report is scheduled to be

                              released during the next reporting period.




October 1, 1998 - March 31, 1999                                              Page 10
                                   AUDIT FOLLOW-UP

TITLE:                        Review of the Commission’s Employee Appraisal
                              Process


ASSIGNMENT #:                 97-02

RELEASE DATE:                 January, 1998
 (Audit Report)

PURPOSE:                      During this reporting period, the OIG completed the

                              follow-up report to the above mentioned audit. The

                              primary objectives of the original audit were to: 1)

                              determine whether the Commission’s employee appraisal

                              process was in compliance with applicable Federal

                              Regulations and Commission Personnel Instructions; and

                              2) determine whether the Commission’s monetary

                              incentive process is in compliance with applicable Federal

                              Regulations and Commission Personnel Instructions. The

                              original report contained four audit recommendations.



                              We inspected Personnel Office documents and

                              interviewed Personnel Office staff in order to determine

                              whether corrective action had been taken to resolve the




October 1, 1998 - March 31, 1999                                            Page 11
Audit Follow-up (continued)



                              audit findings and recommendations. Based on our

                              review of documents and interviews with staff, we have

                              concluded that the Personnel Office has not resolved the

                              four audit recommendations contained in the audit report.

                              Although we found that some action had been taken by

                              the Personnel Office to correct weaknesses cited in our

                              report, the action taken was not sufficient to resolve the

                              audit findings.



                              The four audit recommendations will remain open until

                              corrective action has been taken to address the

                              weaknesses cited in our audit report.




October 1, 1998 - March 31, 1999                                            Page 12
                                   INVESTIGATIONS


       No new investigations were opened during this reporting period.




October 1, 1998 - March 31, 1999                                         Page 13

   ADDITIONAL OFFICE OF INSPECTOR GENERAL ACTIVITY


       All legislation, as compiled by the Commission's Congressional Affairs Office,

was reviewed by the Inspector General, as required by the Inspector General Act of

1978, as amended. The Inspector General also routinely reads all Commission

agenda items and attends Finance Committee Meetings.



       Recently, questions have been raised in two separate forums regarding the

independence of Inspectors General in the Designated Federal Entities (DFEs).

Although Inspectors General have been debating for some time whether to seek

legislation to enhance their statutory independence, the fact that these questions

have now been raised outside of the Inspector General community indicates that

additional attention needs to be given to independence issues.



       The first recently to question the independence of the DFE IGs was the

Professional Ethics Committee of the American Institute of Certified Public

Accountants (AICPA). That Committee has proposed a revision of its rules that

would result in DFE IGs being deemed not sufficiently independent to issue audit

reports under Generally Accepted Auditing Standards (GAAS). Under the proposed

AICPA definition, the Presidentially-appointed IGs would be treated as independent

auditors, but the DFE IGs would be treated as “internal auditors” because they are




October 1, 1998 - March 31, 1999                                        Page 14
appointed by their agency heads and, therefore, they are considered to be less

independent. In response, 24 DFE IGs sent a letter challenging the AICPA’s

proposed revision, and asserting that the manner of an IGs appointment does not

vest some (Presidentially-appointed) IGs with more independence than others

(agency-head appointed).



       The second forum, in which the independence of DFE IGs was raised, was a

hearing before an Administrative Law Judge (ALJ) of the Federal Labor Relations

Authority (FLRA) on an Unfair Labor Practice charge against the Office of

Inspector General of the National Labor Relations Board (NLRB). At issue was the

alleged refusal of an investigator from the NLRB OIG to permit an employee to be

represented by his union during an investigative interview. This very issue is

pending a decision by the U.S. Supreme Court in FLRA v. National Aeronautics and

Space Administration and National Aeronautics and Space Administration Office of

Inspector General, 120 F.3d 1208 (11th Cir. 1997), cert. granted, 119 S. Ct.

401(1998). Oral argument was heard on March 23, 1999. The ALJ who decided the

NLRB case, however, concluded that the NLRB OIG case was not necessarily

dependent on the outcome of the NASA case in the Supreme Court. The ALJ found

that since the NLRB case involved a DFE IG, and the pending NASA case involved

a Presidentially appointed IG, the cases were sufficiently dissimilar to distinguish

them even before the Supreme Court issues its decision. Specifically,




October 1, 1998 - March 31, 1999                                         Page 15
the ALJ stated that:

               Unlike the Inspector General in NASA and the Inspectors General of

               other agencies defined by section 11 of the IG Act as “establishments,”

               the Inspector General of the NLRB is appointed by its Chairman, who

               may also remove him or her. Although such removal must be

               explained to Congress, there are no formal limitations on the reasons

               on such action. The Inspector General, therefore, must rely solely on

               political considerations rather than legal standards with respect to the

               security of his or her position.



       NLRB OIG and NLRBU, FLRA Case No. AT-CA-80026 (February 10, 1999),

at 19. The ALJ went on to state that because a DFE IG serves at the pleasure of

the agency head, and because of the agency’s role in establishing the OIG’s budget,

a DFE IG also appears to have somewhat less independence than a Presidentially-

appointed Inspector General. Id at 20.



       Although the DFE IGs have long believed that the intent of the Inspector

General Act Amendments of 1988 was to establish IGs in the Designated Federal

Entities who have the same level of independence as Presidentially-appointed IGs,

it is becoming increasingly apparent that there are significant perceived differences.

Several legislative proposals pending or soon to be introduced in this Congress




October 1, 1998 - March 31, 1999                                          Page 16
directly affect IGs. In the coming months DFE IGs will become more involved in

working with Congress to address these independence issues.



       As an ongoing project, the Special Assistant to the Inspector General

conducted two unannounced cash counts of the FEC’s imprest fund (#OIG-98-07

and #OIG-99-01). The imprest fund consists of three drawers totaling $2,500. The

results of the cash count for assignment #99-01 revealed no overage or underage

and all cash was accounted for.



       A cash count conducted in November, assignment #98-07, revealed an

underage of $130.40 in one of the three cash drawers. This was due to a travel

advance form not being properly filed. The travel advance form was subsequently

located by the Accounting Office and all cash was accounted for in the form of

currency, coins and receipts of funds disbursed. In addition, our reviews revealed

that cash disbursements from the imprest fund were reasonable and consistent

with FEC imprest fund policy.



       The OIG developed a strategic plan covering fiscal year 1999-2004. The

purpose of this plan is to enhance the effectiveness of the Office of Inspector

General and to ensure effective audit coverage of the Commission’s programs and

operations. Three major categories of OIG-wide goals and objectives have been




October 1, 1998 - March 31, 1999                                          Page 17
identified. They are Products, Processes, and Staff. The goals of each are as

follows:

               OIG Products:       To provide products and services that promote

                                   positive change in FEC policies, programs, and

                                   operations.



               OIG Processes:      To develop and implement processes, policies,

                                   and procedures to ensure the most effective and

                                   appropriate use of OIG resources in support of our

                                   people and products.



               OIG Staff:          To maintain a skilled and motivated work force in

                                   an environment that fosters accountability,

                                   communications, teamwork, and personal and

                                   professional growth.



       The OIG will also take into consideration the FEC’s strategic plan in making

its decision on areas to audit and we will continue the past practice of requesting

audit ideas from all staff. We feel this will assist the office in addressing the audit

requirements of its customers. The OIG Strategic Plan can be found at Appendix A.




October 1, 1998 - March 31, 1999                                          Page 18
       The Commission’s Data Systems Development Division (DSDD) agreed to

host an Internet web page created by the OIG. The OIG web page contains

electronic copies of completed audits and semiannual reports. The OIG had

previously utilized the IG community’s IGnet web site to post reports. A link has

been placed on the IGnet’s web page to redirect Internet users to the OIG’s new web

page. The OIG’s new web address is http://www.fec.gov/fecig.htm.




October 1, 1998 - March 31, 1999                                       Page 19
                             ECIE AND PCIE ACTIVITY


       The Executive Council on Integrity and Efficiency was established by

Executive Order on May 11, 1992. It consists of Designated Federal Entity

Inspectors General and representatives of the Office of Government Ethics, the

Office of Special Counsel, the Federal Bureau of Investigation and the Office of

Management and Budget.



       The Inspector General (or staff) attended the following training, programs

and/or conferences during the last reporting period:



       o	      PCIE Professional Development Forum - The Government

               Performance Results Act

       o       Introduction to Lotus Notes 4.6

       o       Audit & Control of Computer Networks

       o       Introduction to Form Flow

       o       Mail Merge using Microsoft Word

       o       Writing for Success

       o       Making it in the Millennium - Executive Women in Government

       o       The Integrated Audit workshop




October 1, 1998 - March 31, 1999                                        Page 20
       o	      Understanding and Auditing the Enterprise Telecommunications

               Environment

       o	      Live Internet briefing on Internet and Internal Network Intrusion

               detection - “What Hackers Know About your Site”

       o       Microsoft Explorer Exposition




October 1, 1998 - March 31, 1999                                        Page 21
IG ACT                 REPORTING REQUIREMENTS                                          PAGE

Reporting requirements required by the Inspector General Act of 1978, as amended
by the Inspector General Act Amendments of 1988 are listed below:

Section 4(a)(2)        Review of Legislation-----------------------------------------------14

Section 5(a)(1)	       Significant Problems, Abuses, and
                       Deficiencies---------------------------------------------------------None

Section 5(a)(2)	       Recommendations with Respect to
                       Significant Problems, Abuses, and
                       Deficiencies---------------------------------------------------------None

Section 5(a)(3)	       Recommendations Included in Previous
                       Reports on Which Corrective Action Has
                       Not Been Completed-----------------------------------------------25

Section 5(a)(4)	       Matters Referred to Prosecutive
                       Authorities---------------------------------------------------------None

Section 5(a)(5)	       Summary of Instances Where Information
                       was Refused-------------------------------------------------------None

Section 5(a)(6)        List of Audit Reports-----------------------------------------------7

Section 5(a)(7)        Summary of Significant Reports-------------------------------7

Section 5(a)(8)        Questioned and Unsupported Costs-------------------------23

Section 5(a)(9)	       Recommendations that Funds be put
                       to Better Use--------------------------------------------------------24

Section 5(a)(10)	      Summary of Audit Reports issued before
                       the start of the Reporting Period for which
                       no Management Decision has been made----------------N/A

Section 5(a)(11)       Significant revised Management Decisions-------------N/A

Section 5(a)(12)	      Management Decisions with which the
                       Inspector General is in Disagreement-------------------None




October 1, 1998 - March 31, 1999                                                       Page 22
                                        TABLE I

                     INSPECTOR GENERAL ISSUED REPORTS
                           WITH QUESTIONED COSTS


                                        DOLLAR VALUE (in thousands)
                                                  QUESTIONED   UNSUPPORTED
                                        NUMBER       COSTS        COSTS


A. 	 For which no management              0            0            [0]
     decision has been made by
     commencement of the reporting
     period


B. Which were issued during the           0            0            [0]
   reporting period

       Sub-Totals (A&B)                   0            0            [0]


C. 	 For which a management               0            0            [0]
     decision was made during
     the reporting period

       (i) Dollar value of disallowed     0            0            [0]
           costs

       (ii) Dollar value of costs         0            0            [0]
            not disallowed


D. 	 For which no management              0            0            [0]
     decision has been made by the
    end of the reporting period


E. 	 Reports for which no management      0            0            [0]
     decision was made within
     six months of issuance




October 1, 1998 - March 31, 1999                                 Page 23
                                          TABLE II

            INSPECTOR GENERAL ISSUED REPORTS WITH
       RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE


                                               NUMBER    DOLLAR VALUE
                                                          (in thousands)


A.	     For which no management                      0         0
        decision has been made by
        the commencement of the
        reporting period

B. 	    Which were issued during                     0         0
        the reporting period

C.	     For which a management                       0         0
        decision was made during
        the reporting period

        (i) 	    dollar value of                     0         0
                 recommendations
                 were agreed to by
                 management

                 based on proposed                   0         0
                 management action

                 based on proposed                   0         0
                 legislative action

        (ii) 	   dollar value of                     0         0
                 recommendations
                 that were not agreed
                 to by management

D. 	    For which no management                      0         0
        decision has been made by
        the end of the reporting period

E. 	    Reports for which no                         0         0
        management decision
        was made within six months
        of issuance




October 1, 1998 - March 31, 1999                               Page 24
                                           TABLE III

        SUMMARY OF AUDIT REPORTS WITH CORRECTIVE ACTIONS
            OUTSTANDING FOR MORE THAN SIX MONTHS



                                                  Recommendations
Audit           Report        Management
Report          Issue          Response
Number          Date             Date            Number   Closed   Open

97-02           01/98              01/98           4       0          4


97-03           01/98              03/98           2       0          2





October 1, 1998 - March 31, 1999                                   Page 25

                             YOU CAN HELP




                                    202-694-1015
                                     or toll free
                                   1-800-424-9530
             Report: Fraud, Waste or Mismanagement

               o       Information is Confidential
               o       Caller Can Remain Anonymous

                                         or

                   Write the Office of Inspector General

                              Federal Election Commission
                              999 E Street, N.W., Suite 940
                              Washington, D.C. 20463




October 1, 1998 - March 31, 1999                              Page 26
                                                                Appendix A



         FEDERAL ELECTION COMMISSION

         OFFICE OF INSPECTOR GENERAL


                              STRATEGIC PLAN




                                   FISCAL YEARS

                                     1999 - 2004


                                                    Lynne A. McFarland
                                                      Inspector General




October 1, 1998 - March 31, 1999                            Page 27
                   Inspectors General Vision Statement

We are agents of positive change striving for continuous improvement in our
agencies’ management and program operations and in our own offices.

                      _____________________________________

                   Statement of Reinvention Principles
                                    We Will:


•	 Work with our agency head and the Congress to improve program
   management.

•	 Maximize the positive impact and ensure the independence and
   objectivity of our audits, investigations and other reviews.

•	 Use our investigations and other reviews to increase Government integrity
   and recommend improved systems to prevent waste, fraud and abuse.

•	 Be innovative and question existing procedures and suggest
   improvements.

•	 Build relationships with program managers based on a shared
   commitment to improving program operations and effectiveness.

• Strive to continually improve the quality and usefulness of our products.

• Work together to address Government-wide issues.




October 1, 1998 - March 31, 1999                                       Page 28
                        STRATEGIC PLAN

                            FOR THE

                 OFFICE OF INSPECTOR GENERAL



I. Introduction and Background:

       To enhance the effectiveness of the Office of Inspector General (OIG) at the
Federal Election Commission (FEC), and to ensure effective audit coverage of the
Commission’s programs and operations, this office has developed the following strategic
plan. In conjunction with the strategic plan, the OIG will continue to request audit ideas
from all staff. The OIG will also take into consideration the FEC’s strategic plan in
making its decisions on areas to audit. This will enable the office to address the audit
requirements of its customers.

        The Office of Inspector General within the Federal Election Commission was
created in accordance with the Inspector General Act of 1978, as amended. The mission
of the OIG, as spelled out in the Act, is to:

               •	 conduct and supervise independent and objective audits and
                  investigations relating to agency programs and operations;
               • promote economy, effectiveness, and efficiency within the agency;
               •	 prevent and detect fraud, waste and abuse in agency program and
                  operations;
               •	 review and make recommendations regarding existing and proposed
                  legislation and regulations relating to agency programs and operations;
               •	 keep the agency head and the Congress fully and currently informed to
                  problems in agency programs and operations.

To carry out these responsibilities, the Congress has given the Inspector General:

               •	 access to all records, reports, audits, reviews, documents, papers,
                  recommendations or other material which relate to the programs and
                  operations of the Commission;
               •	 authority to make such investigations and reports, that in the judgment
                  of the Inspector General, are necessary;
               •	 authority to request assistance from any federal, state or local
                  government agency as may be necessary;
               • authority to issue subpoenas;
               • authority to administer and take oaths, affirmations or affidavits;
               • direct and prompt access to the Commission (as head of the agency);



October 1, 1998 - March 31, 1999                                                     Page 29
               •	 authority to select, appoint and employ such officers and employees as
                  may be necessary for carrying out the functions, powers, and duties of
                  the OIG;
               • authority to obtain expert and consultant services; and,
               •	 within the limits of the budget, authority to contract out for audits,
                  studies, analyses, and other services.

The OIG shall also:

               •	 comply with Government Auditing Standards and other applicable
                  auditing and investigative standards;
               •	 ensure that any work performed by non-federal auditors complies with
                  Government Auditing Standards;
               •	 avoid duplication with the U.S. General Accounting Office (GAO) and
                  ensure effective coordination and cooperation;
               •	 report all suspected violations of criminal law to the Attorney General;
                  and,
               •	 arrange for a review of the OIG by a federal audit entity at least once
                  every three years for the purpose of determining whether Government
                  Auditing Standards are being followed.


II. Organization:

        The OIG is currently assigned four FTE. The staff consists of the Inspector
General, two senior Auditors and a Special Assistant to the Inspector General. The OIG
is provided legal services through a Memorandum of Understanding (MOU) with the
Office of General Counsel. The OIG also has a MOU with the Staff Director and the
Designated Agency Ethics Official.

        The OIG takes several steps to ensure the quality of the work performed and
products produced. The office hires only qualified and competent staff and ensures that
their expertise and professional competence is maintained by being certain that all staff
receive the amount of training required by the Government Auditing Standards. A
deliberate effort is made to give staff a wide variety of assignments, including special
projects, to further increase their knowledge and capabilities. Since the staff size is
small, the Inspector General is very involved in the audit and investigative processes.

        All products that are produced by the OIG are personally reviewed and signed by
the Inspector General. In addition, every three years, the OIG undergoes a peer review of
the audit operation. This is conducted by another Office of Inspector General following
PCIE/ECIE guidelines. The results of the peer review are given to the Commission by
the Inspector General.




October 1, 1998 - March 31, 1999                                                    Page 30
III. Federal Election Commission - Mission Statement and Goals:

         The mission statement of the FEC, as stated in the FEC Strategic Plan 1998-2003,
is as follows:
               The ultimate mission of the FEC is to assure that the campaign finance
               process is fully disclosed and that the rules are effectively and fairly
               enforced, fostering the electorate’s faith in the ultimate integrity of the
               nation’s political process.

The FEC has identified four major goals and objectives that have been tied to four core
programs. They are as follows:

               Program I - Promoting Disclosure of Campaign Finance Reports
               Required to be Filed for Public View Under the FECA (Title 2): To
               promote full, accurate, and timely disclosure of campaign finance activity
               in federal elections, and to provide information and policy guidance on
               the FECA to the public, press and those persons and entities required to
               comply with the FECA.

               Program II - Enforcing the Disclosure and Limitations Provisions of the
               FECA (Title 2): To encourage and obtain voluntary compliance with the
               disclosure and limitation provisions of the FECA through enforcement of
               the FECA in a timely, consistent, and comprehensive manner.

               Program III - Implementing the Presidential Election Public Funding
               Provisions of the FECA (Title 26): To successfully administer the public
               finding provisions of the FECA under Title 26 U.S.C. for qualified
               candidates in presidential elections.

               Program IV - Enhancing Federal Election Administration: To assist
               state and local election officials charged with administering federal
               elections through operation of the National Clearinghouse on Election
               Administration.


IV. Office of Inspector General’s Goals and Objectives:

        Subsequent to the evaluation of the various considerations that would affect the
OIG mission and the ability to meet it, three major categories of OIG-wide goals and
objectives have been identified. They are, Products, Processes, and Staff. Possible
strategies and performance measures for each have been included.




October 1, 1998 - March 31, 1999                                                   Page 31
        The OIG strategic plan will continue to evolve and will be reviewed and updated
as necessary to ensure maximum effectiveness in meeting the changing needs of the FEC,
consistent with the OIG’s statutory responsibilities.


       OIG Products: To provide products and services that promote positive
       change in FEC policies, programs, and operations.


       Objective A:	          Deliver timely, high-quality products and services that
                              promote positive change.

           Strategy:          - establish common OIG standards for communicating
                                  results;
                              - conduct quality assurance programs;
                              -	 solicit appropriate internal and external review and
                                 comment;
                              -	 comply with applicable statutory guidelines and
                                 standards;
                              - set realistic and appropriate milestones.


       Objective B:	          Address priority issues and concerns of the Commission,
                              Management and Congress.

           Strategy:          - Perform work that supports:
                                     -	 Federal Election Commission and Congressional
                                        priorities;
                                     - National Performance Review objectives;
                                     - Strategic Management Initiative efforts;
                              - Focus OIG attention in the following areas of emphasis:
                                     - managing change;
                                     -	 resource allocation in relation to policy
                                        objectives;
                                     - delivery of client service;
                                     - causes of fraud and inefficiency; and,
                                     - automation and communication.


       Objective C:	          Follow-up and evaluate results of OIG products and
                              services to assess their effectiveness in promoting positive
                              change.

           Strategy:          -	 Identify, as appropriate, lessons learned to improve
                                 timeliness and quality; and,


October 1, 1998 - March 31, 1999                                                    Page 32
                              -	 conduct follow-up reviews to determine if intended
                                 results have been achieved.


       Objective D:           Satisfy customers, consistent with the independent
                              nature of the OIG.

           Strategy:          -	 establish professional communication and interaction
                                 with customers to promote the open exchange of ideas;
                              - incorporate customer feedback, as appropriate; and,
                              - be open to customer-generated solutions and options.


       Performance Measures: Determine the timeliness and quality of products and
       services; their effectiveness in promoting positive change; and, reach agreement
       with management on at least 90% of recommendations within six months of the
       report issue date.


       OIG Processes: To develop and implement processes, policies, and
       procedures to ensure the most effective and appropriate use of OIG resources in
       support of our people and products.


       Objective A:           Maintain a dynamic strategic planning process.

           Strategy:          - periodically review and update the strategic plan to
                                 address changing OIG and FEC priorities; and,
                              -	 identify factors that influence organizational change
                                 and develop short and long term plans to address them.


       Objective B:	          Plan and conduct cost-effective work that address critical
                              issues and results in positive change.

           Strategy:          -	 solicit FEC and Congressional input in planning OIG
                                 activities;
                              -	 develop internal planning mechanisms to support FEC
                                 goals and priorities;
                              - ensure that priorities of IG are effectively communicated;
                              -	 identify specific targets for OIG review that are the most
                                 cost-effective.




October 1, 1998 - March 31, 1999                                                    Page 33
       Objective C:           Identify customer needs and provide products and services
                              to meet them.
           Strategy:          - establish new customer feed back mechanisms;
                              -	 consider and evaluate customers feedback when planning
                                 and developing products and services;
                              -	 respond to congressional inquiries and requests for
                                 briefing and testimony;
                              -	 promote open exchange of ideas and information through
                                 outreach and through use of e-mail; and,
                              -	 receive, evaluate, and respond, as appropriate, to
                                 information received through the OIG hotline and other
                                 sources.


       Objective D:	          Implement efficient, effective, and consistent resolution
                              and follow-up procedures.

           Strategy:          - ensure that IG follow-up procedures are followed and
                                 that management is aware of their role in the process;
                              -	 establish common OIG standards for terminology, date
                                 maintenance and communications.


       Objective E:           Establish a positive and productive working environment.

           Strategy:          - reengineer or streamline OIG procedures to achieve the
                                 most effective use of resources; and,
                              -	 ensure that necessary technologies, evolving and
                                 otherwise, are made available to staff as needed.


       Performance Measures: An annual audit plan is issued; strategic plan is
       periodically reviewed; and, necessary technology is provided to staff to enable
       them to most efficiently perform their duties.


       OIG Staff: To maintain a skilled and motivated work force in an environment
       that fosters accountability, communications, teamwork, and personal and
       professional growth.


       Objective A:	          Attract and retain well-qualified, diverse and motivated
                              employees.

           Strategy:          - develop and implement a comprehensive recruiting


October 1, 1998 - March 31, 1999                                                    Page 34
                                 program that attracts a broad population with the
                                 knowledge, skills, abilities, and expertise necessary to
                                 make meaningful contributions to the OIG;
                              -	 assess employee satisfaction and develop strategies to
                                 address employee concerns;
                              -	 identify reasons for staff departures and develop plans to
                                 foster greater staff retention; and,
                              -	 adhere to EEO principles and strive to maintain a diverse
                                 work force.

       Objective B:	          Provide training and developmental opportunities to
                              employees.

           Strategy:          - assess training needs in relation not only to employee but
                                 office needs as well;
                              -	 ensure that Government Auditing Standards in relation to
                                 training are adhered to; and,
                              -	 maintain a reporting system to ensure that educational
                                 requirements are met.


       Objective C:	          Assess, recognize, and reward, when possible, performance
                              that contributes to achieving the OIG mission.

           Strategy:          -	 develop and articulate expectations for each employee’s
                                 performance, including contributions in meeting the
                                 mission & goals of the OIG; and,
                              -	 ensure that rewards, when possible, are given in
                                 recognition of exceptional employee performance.

       Objective D:	          Create and maintain a working environment that promotes
                              teamwork and effective communication.

           Strategy:          - ensure that communication between employees is open;
                              -	 provide employees with the tools and incentives they
                                 need to adequately perform their duties.


       Performance Measures: All employees meet the training requirements; all
       employees have performance standards; and all employees meet the basic
       requirements for the position in which they were hired to perform.




October 1, 1998 - March 31, 1999                                                    Page 35
